OIG Audit Report GR-30-05-002

United States Marshals Service Intergovernmental Service Agreement for Detention Facilities with the Alexandria, Virginia Sheriffs Office
Audit Report GR-30-05-002
January 2005
Office of the Inspector General


Executive Summary


The  United States  Marshals Service (USMS) assumes custody of individuals arrested by all  federal agencies and is responsible for the housing and transportation of  prisoners from the time they are brought into federal custody until they are  either acquitted or incarcerated.  Each  day, the USMS houses more than 47,000 detainees throughout the nation. In order to house these pre-sentenced  detainees, the USMS executes contracts known as Intergovernmental Service  Agreements (IGA) with state and local governments to rent jail space.  According to the USMS, 75 percent of the  detainees in USMS custody are detained in state, local, and private facilities.
In  locations where detention space is scarce, the USMS provides select state and  local governments with funds to improve local jail facilities and to expand  jail capacities.  In return, the USMS  receives guaranteed space for its federal detainees.  The USMS, acting on its own behalf as well as  that of the Department of Homeland Security’s Bureau of Immigration and Customs  Enforcement, has awarded $285 million to counties and municipalities, resulting  in the provision of more than 13,600 guaranteed spaces for federal  detainees.  
The  USMS awarded the Alexandria,  Virginia Sheriff’s Office (Sheriff’s Office) IGA number 83-00-0014 on December  8, 1999.  According to the IGA, prisoners  are housed in the Alexandria   Adult Detention   Center (detention center)  at a rate of $93.92 per jail day.1 According to the City of Alexandria’s performance accounting system  general ledger, during this 23-month period, the Sheriff’s Office was paid  $9,077,291 under the IGA.
The purpose of the audit was to determine if  the allowable costs for the detention and care of inmates under OMB Circular  A-87, “Cost Principles for State, Local and Indian Tribal Government” supported  the jail day rate. 2 Based on our audit of actual costs and daily  population, we determined that the Sheriff’s Office’s records supported the  rate used to bill the USMS. 


 

Footnotes

A jail day is the equivalent of one person incarcerated for one day and  begins on the date of arrival, but does not include the date of departure.
For more information on our objectives, scope, and methodology, see  Appendix I.





 




Return to OIG Home Page